Supreme Court, U.S.
FILED

MAY I 1 2021
No. 21-

In The
SUPREME COURT OF THE UNITED STATES

In re Isaiah S. Harris Sr., Petitioner

PETITION FOR WRIT OF HABEAS CORPUS

Isaiah S. Harris Sr. #570016
Richland Correctional Institution
P.0 Box 8107
Mansfield, Ohio 44901
Pros se Litigant
Mr. Dave Yost
to)
State Office Tower,
m
fc i j—.
30 East Broad Street, 16th Floolijl ]\\ S FQ, s
Columbus, Ohio 43215

OFFICE OF THE CLERK

QUESTION(S) PRESENTED
Mr. Harris' habeas petition presents exceptional
circumstances that have sharply divided the courts below. Eight
out of twelve United States of Appeal Circuits have controlling
case law that “violates clearly established" United States Supreme
Court case precedent with an "affirmative due diligence" 4th
prong to the Brady analysis. Also, Harris highlights a Sixth Circuit
court split about whether the “new" evidence required under
Schlup includes only "newly discovered" evidence that was not
available at the time of trial, or broadly encompasses all evidence
that was not presented to the fact-finder, i.e., "newly presented"
evidence.
(1) Whether or not, the prosecutor's obligation under Brady to
turn over evidence in the first instance stands independent of
the defendant's knowledge in this case, or does the fact that
defense counsel knew or should have known irrelevant to
whether the prosecution had an obligation to disclose the
information?
s ■

(1) Whether or not, if it is proper for the trial court to admit to a
Brady violation on the record, then deny the defendant the right
to present a defense and to fully cross-examine the accuser with
the impeachment and exculpatory evidence?
(3) Whether or not, if due process violations still matter in this
case or, can those due process violations remain intact and hinge
on a fact of law, of whether there's a meaningful difference
between newly discovered evidence or newly presented
evidence, while the classification of the evidence is predicated on
the State's suppression of Brady-Chambers evidence at trial.
(4) Whether or not, if impeachment evidence, by itself, can
demonstrate actual innocence where it gives rise to sufficient
doubt about the validity of the conviction, under the Schlup
actual innocence "gateway standard"?
(5) Whether or not, it is true that today in America any court or
agency can hide evidence, while knowing that fact, and the
outcome will be predicated on which circuit you were charged
with a crime in?

ii

LIST OF PARTIES
[X] all parties appear in the caption of the cover page.

Just to be clear, The Warden of Richland Correctional
Institution is Mr. Kenneth Black and Ohio's Attorney General is
Mr. Dave Yost and Petitioner Prison inmate is Isaiah S. Harris Sr.

iii

TABLE OF CONTENTS

Title:

Page#

Opinions Below
Jurisdiction

1.
1.

Constitutional and Statutory Provisions Involved

2.

Statement of the Case

4.

Reasons for Granting the Writ

3H.

I. Statement of Reasons for not filing...

25.

II. The Exceptional Circumstances of this case...

25.

Conclusion

3%
INDEX TO APPENDICES

Appendix A- Sixth Cir. order

Appendix O- P. report 06 (door report)
Appendix P- P. report 5-07 (same lie)
Appendix Q- P. report 02 (stepbrother)
Appendix R- P. report 03 (same lie)
Appendix S- visit list and pictures 3-30-21
Appendix T- P. report 7-17-08(911 no reason)
Appendix U- Judgement Entry 2009
Appendix V- Supreme Court rule 20
Appendix W- Fed R. Evid. 608
Appendix X- Fed R. 611
Appendix Y- Fed R. Crim. Proc. 16
Appendix Z- 5th,6th,14th U.S. Const. Amend.

Appendix B- Federal District rehearing
Appendix C- Federal District order
Appendix D- Magistrate Judge's order
Appendix E- Magistrate Judge's R&R
Appendix F- Supreme Court of Ohio
Appendix G- Direct appellant's brief
Appendix H- Ninth District of Ohio's order
Appendix I- §2241 Power to Grant Writ
Appendix J- §2254 State Custody(remedies)
Appendix K- §2244 AEDPA lyear-time-limit
Appendix L- §2253 COA
Appendix M- P. report 11-08 (rape report)
Appendix N- P. report 11-7 (same door)

iv

TABLE OF AUTHORITIES CITED
CASES

PAGE#

Banks v. Dretke, 540 U.S. 668, (U.S. 2004)

14.

Bell v. Arn, 536 F. 2d 123, (6th Cir. 1976)

21,22.

Benge v. Johnson, 474 F.3d 236, (6th Cir. 2007)

14,16.

Brady v. Maryland, 373 U.S. 83, (U.S. 1963)

14.

Brown v. Palmer, 441 F.3d 347, (6th Cir. 2006)

26,27.

Buck v. Davis, 137 S. Ct. 759, (U.S. 2017

19.

Carter v. Bell, 218 F.3d 581, (6th Cir. 2000)

14.

Chambers v. Mississippi, 410 U.S. 284, (U.S. 1973)

14,15,16.

Cleveland v. Bradshaw, 693 F.3d 626, (6th Cir. 2012)

20.

Davis v. Lafler, 658 F. 3d 525, (6th Cir. 2011)

21.

Estes v. Texas, 381 U.S. 532, (U.S. 1965)

26.

Ex parte Fahey, 332 U.S. 258, (U.S. 1947)

24.

Ex parte Milligan, 71 U.S. 2, (U.S. 1866)

26.

Gamble v. United States, 139 S. Ct. 1960, (U.S. 2019)

19.

Giglio v. United States, 405 U.S. 150, (U.S. 1972)

15,16,21.

Hohn v. United States, 524 U.S. 236, (6th Cir. 1998)

26.

Jackson v. Virginia, U.S. 307, (U.S. 1979)

23.

Lall v. Berg, 556 Fed. Appx. 449, (6th Cir. 2014)

26,27.

Me Quiggin v. Perkins, 569 U.S. 383, (U.S. 2013)
Smith v. Cain, 565 U.S. 73, (U.S. 2012)
Strickler v. Greene 527 U.S. 263, (U.S. 1999)

22,23,24.

14,15,22.
7,14,15,18.

United States v. Mullins, 22 F.3d 1365, (6th Cir. 1994)

14,16.

United States v. Tavera, 719 F. 3d 705, (6th Cir. 2013)

14,20,24.

Wearry v. Cain, 136 S. Ct. 1002, (U.S. 2016)

v

14,22.

STATUTES AND RULES

PAGE#

Supreme Court Rule 20

24.

28 U.S.C. §2241 Power to grant writ

24,25.

28 U.S.C. §2242 Application

24,25.

28 U.S.C. §2244 (d)(1)(D) 1st time Habeas one-year...

22,23,24,27.

28 U.S.C. §2253 (c)(l)(c)(2) (COA)

19,27.

28 U.S.C. §2254 State Custody

4,24.

U.S.C. Fed Rule Crim Proc. R. 16 (a)(E)(i)(ii)

11.

U.S.C. Fed Rules Evid R. 608 (A)(1)

23.

U.S.C. Fed Rule 611. (b)

23.

OTHER

PAGE#

THE FITH AMENDMENT OF THE UNITED STATES CONST.

1.

THE SIXTH AMENDMENT OF THE UNITED STATES CONST.

1.

THE FOURTEENTH AMENDMENT OF THE UNITED STATES CONST.

1.

vi

1
PETITION FOR WRIT OF HABEAS CORPUS
Petitioner Isaiah S. Harris, Sr. invokes this Court's broad and
discretionary power pursuant to 28 U.S.C. § § 2241, 2254(a),
1651(a), and Article III of the U.S. Constitution, to remand this
case to the Sixth Circuit with instructions to grant an
unconditional writ of Habeas corpus relief.
OPINION BELOW
The opinion of the United States Court of Appeals for the Sixth
Circuit is unpublished at USAP6 No. 17-3326, September 28, 2017
and attached at appendix A.
STATEMENT OF JURISDICTION
The order of the court of appeals denying equitable tolling to
overcome 28 U.S.C. § 2244(d)(1)(D), Brady-Chambers due process
relief, and (COA) certificate of appealability under its duty
pursuant to 28 U.S.C. §2253(c)(l)(c)(2) was entered on September
28, 2017. This Court's jurisdiction is invoked pursuant to 28 U.S.C.
§ § 2241, 2254(a), 1651(a), and Article III of the U.S. Constitution.
RELEVANT CONSTITUTIONAL AND STATUORY PROVISIONS
THE FIFTH AMENDMENT OF THE UNITED STATES CONST. STATES
IN RELEVANT PART: nor shall be compelled in any criminal case to
be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law;
THE SIXTH AMENDMENT OF THE UNITED STATES CONST. STATES
IN RELEVANT PART: shall enjoy the right to be confronted with the
witnesses against him; to have compulsory process for obtaining
witnesses in his favor, and to have the assistance of counsel for
his defense.
THE FOURTEENTH ANMENDMENT OF THE UNITED STATES CONST.
STATES IN RELEVANT PART: No State shall make or enforce any
law which shall abridge the privileges or immunities of citizens of
the United States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny any
person within its jurisdiction the equal protection of the laws.

2
CONSTITUTIONAL AND STATUTORY INVOLED
Banks v. Dretke, 540 U.S. 668, (U.S. 2004)
Bell v. Am, 536 F. 2d 123, (6th Cir. 1976)
Benge v. Johnson, 474 F.3d 236, (6th Cir. 2007)
Brady v. Maryland, 373 U.S. 83, (U.S. 1963)
Brown v. Palmer, 441 F.3d 347, (6th Cir. 2006)
Buck v. Davis, 137 S. Ct. 759, (U.S. 2017
Carter v. Bell, 218 F.3d 581, (6th Cir. 2000)
Carvajal v. Dominguez, 542 F.3d 561, (7th Cir. 2008)
Chambers v. Mississippi, 401 U.S. 284, (U.S. 1973)
Cleveland v. Bradshaw, 693 F.3d 626, (6th Cir. 2012)
Davis v. Lafler, 658 F.3d 525, (6th Cir. 2011)
Dennis v. Sec'y, Pa. Dep't of Corr., 834 F.3d 263, (3rd Cir. 2016)
Ellesworth v. Warden, N.H. State Prison, 333 F.3d 1, (1st Cir. 2003)
Estes v. Texas, 381 U.S. 523, (U.S. 1965)
Ex parte Fahey, 332 U.S. 258, (U.S. 1947)
Ex parte Milligan, 71 U.S. 2, (U.S. 1866)
Gamble v. United States, 139 S. Ct. 1960, (U.S. 2019)
Giglio v. United States, 405 U.S. 150, (U.S. 1972)
Hohn v. United States, 524 U.S. 236, (U.S. 1998)
In re Sealed Case No. 99-3096,185 F.3d 887, (D.C. Cir. 1999)
Jackson v. Virginia, 443 U.S. 307, (U.S. 1979)
Lall v. Bergh, 556 Fed. Appx. 449, (6th Cir. 2014)
May v. Hines, 141 S. Ct. 1145, (U.S. 2021)
Me Quiggin v. Perkins, 569 U.S. 383, (U.S. 2013)
Ramos v. Louisiana, 140 S. Ct. 1390, (U.S. 2020)
Sistrunk v. Armenakis, 292 F.3d 669, (9th Cir. 2002)

3
Smith v. Cain, 565 U.S. 73, (U.S. 2012)
Strickler v. Greene, 527 U.S. 263, (U.S. 1999)
United States v. Brown, 650 F.3d 581, (5th Cir. 2011)
United States v. Holloway, 939 F.3d 1088, (10th Cir. 2019)
United States v. Howell, 231 F.3d 615, (9th Cir. 2000)
United States v. Le Roy, 687 F.2d 610, (2nd Cir. 1982)
United States v. Mullins, 22 F.3d 1365, (6th Cir. 1994)
United States v. Parker, 790 F.3d 550, (4th Cir. 2015)
United States v. Rigal, 740 Fed. Appx. 171, (11th Cir. 2018)
United States v. Roy, 781 F.3d 416, (8th Cir. 2015)
United States v. Tavera, 719 F.3d 705, (6th Cir. 2013)
Wearry v. Cain, 136 S. Ct. 1002, (U.S. 2016)

4

STATEMENT OF THE CASE
On May 20, 2009, at trial Harris' Motion for Acquittal
were denied at the close of the State's case, as well at the close of
evidence. (T.p. ID# 219, 253, 264-267) In case number
09CA009605 (trial case number 08CR076357). The Court returned
a verdict of guilty on both counts, and imposed a sentence of a
total term of eighteen months in prison. In case number
09CA009606 (trial case number 08CR075721). The trial court
returned a verdict of guilty of Domestic Violence and not guilty of
Felonious Assault, and imposed a sentence of a total term of
eighteen months in prison. In case number 09CA009607 (trial case
number 08CR077230) the trial court returned a verdict of not
guilty of Kidnapping, but guilty on the remaining counts of the
indictment, and imposed a sentence of twenty and Vi years in
prison for a grand total of 23 Vi years in prison. (T.p. ID# 268-275).
See appendix U (judgment entry).
On June 17, 2009, Harris filed a notice of appeal to the
Court of Appeals in all three cases. On September 25, 2009, the
court of appeals issued and order consolidating the three cases
for purposes of appeal.
The Ninth District Court of Appeals affirmed the judgment
of the trial court on March 22, 2010. See appendix H. The
Supreme Court of Ohio declined to accept jurisdiction on August
25, 2010- case number 2010-0787. See appendix F. Harris then
filed a petition for a writ of habeas corpus, pursuant to 28 U.S.C.
§2254, on April 18, 2014.
September 11, 2014, Harris filed a Motion to Extend the
Record, so that the record could be supplemented to include: The
alleged, victim's pretrial police reports concerning charges of
domestic violence against petitioner from 2002 through 2008:
Particularly Mr. Taylor's police reports lodged in 2003 and 2007
which resulted in the police determining that there was "no
merit to her allegation." (and where in 2007 the police had
informed her that they discussed charging her with making a false
allegation)... On February 3, 2015 Magistrate Judge Greg White
denied this Motion to Expand the Record and denied Harris'
further request for a 60-day extension of time to file his Traverse;
and ordered Harris to file his Traverse by February 24, 2015. Yet,
prior to receiving the Court's February 3, 2015, order, Harris filed

5
a Motion for Leave to Amend his petition, on February 6, 2015,
so as to add two additional grounds for relief. The District Court
granted Harris' Motion for Leave...', and ordered that Harris'
Traverse be filed by... See appendix D (Mag. Judge's order).
The charges in case number 09CA009606 (trial case
number 08CR075721), arose out of the incident on March 26,
2008. On that date, Kiesha Taylor testified that Harris came to her
house, choked and punched her several times. (T.p. ID# 130-141).
At the time, there was a protection order issued in
connection with case number 08CR075721 which prohibited
petitioner Harris from having any contact with Ms. Taylor. On
June 30, 2008, Harris was charged with domestic violence and
violation of a protective order, case number 09CA009605 (trial
case number08CR076357).
In case number 09CA009607 (trial case number
08CR0077230), Ms. Taylor testified that Harris came to her house
at 11:30 pm November 12, 2008, and allegedly kicked in the door
and came in. (T.p. ID# 159.) See appendix M (1st page thereof).
The two of them spoke, then this episode ended at
5:00am November 13,2008, after Harris allegedly forced Ms.
Taylor to perform oral sex on him. (T.p. ID# 159-170). Ms. Taylor
testified that after the first two incidents, she and Harris would
meet and have consensual sex several time: which included her
performing oral sex on him. (T.p. ID# 187-193). She also admitted
that she went to the county jail to visit him several times after he
was arrested and charged in all three cases. (T.p. ID# 221-222).
Ms. Taylor testified to the children's names and birthdays. (T.p.
ID# 130-131).
With respect to the March 26,2008 incident Harris
testified he contacted Ms. Taylor so as to gain her permission to
see their son (Isaiah Jr.)- because March 26, 2008 is the day
before his birthday. The two of them- Ms. Taylor and Harrisbegan arguing and a female, which had accompanied him, began
fighting with Ms. Taylor. Ms. Taylor falsely claimed that Harris was
the assailant because she was mad for him being involved with
another woman. (T.p. ID# 227).
Harris and Ms. Taylor continued to see each other and
have sexual relation after this incident. (T.p. ID# 228). Harris

6
contacted Ms. Taylor so as to make arrangements for her to bring
their children to see him on June 30, 2008- which is their
daughter's birthday, and Ms. Taylor agreed. However, Ms. Taylor,
then showed up at the appointed time without the kids and the
two of them got into an argument over such. And again Ms. Taylor
and Harris' female companion got into a physical altercation. (T.p.
ID# 228-229). Ms. Taylor had falsely accused Harris as being the
assailant: because she was jealous of him being involved with
another woman.
With respect to the November, 2008, incident Harris
testified that Ms. Taylor fabricated the entire story. He denied
have contact with Ms. Taylor at all that day (T.p. ID# 230). Harris
testified that Ms. Taylor had filed false charges against him in the
past- as can be fully substantiated by the previous police reports.
(T.p. ID# 222-226).
Also, the witness admitted she has a tendency to lie on
petitioner Harris and that she was almost charged for lying to the
prosecution. (T.p. ID# 178-180). The State's witness admitted
during her testimony that she would knowingly lie to achieve her
end. (T.p. ID# 186-187). So with the testimonial evidence from the
sole witness on the record and the Brady-chambers evidence
unlawfully suppressed off the record the State's case falls apart
on these material points; that the sole witness credibility is intact
to carry the conviction, and Harris' trial is fundamentally and
constitutionally fair.
Harris was denied his "Brady-Chambers" right to a
fundamental fair trial guaranteed by the Fifth, Sixth, and the
Fourteenth Amendments of the United States Constitution. Thus,
petitioner Harris was denied his rights to due process as the record
shows the trial court was put on notice, to the existence of
exculpatory Brady evidence. To wit: (on the record as follows) Q:
you have been falsely accused by her in the past. A: yes. Mr. Pierre:
Objection. A: yes, I was. The Court: Hold on a second. I'll allow it.
Mr. Rich: I might as well put this on this record. My issue with this
is, once again I believe it was Brady material, because we are
dealing with the same parties, in the same city, with the same
police department, and there are three or four incidents with the
same people, in which it is very clear there is impeachment
evidence with Ms. Taylor. Once again, defense counsel has to do a

7
public record request. So I do have this information, but that does
not alleviate the State's burden to be providing exculpatory
evidence. And when I say exculpatory evidence, I mean, it is
favorable to the defense. It is evidence that I could impeach her
with that I started to get into, a degree in which I believe that the
Court will allow. This is not a personal attack on Mr. Pierre. My
long- standing argument is I still believe that the questions are not
asked of the individual police department about impeachment
evidence or evidence favorable to the defense. As I have been
standing here right now, I'm willing to argue I bet you Mr. Pierre
doesn't have personal knowledge these incidents and reports
exist, but by law he is deemed to have knowledge because of the
agents, the Lorain police Department. Once again. I feel there is
favorable information that was available that should have hppn
provided, and it wasn't. The Court: be this as it may, Mr. Rich what
does that have to do with the question to him? Mr. Pierre: Am I
going to get a chance to respond to his Brady argument? The
Court: No, I think you will have to sit there and take it. (T.p. ID# 223224)1
In the present case the trial judge and the State's
prosecutor became vitiators. The reason why the Judge said "No, I
think you have to sit there and take it." Is because if the prosecutor
(Mr. Pierre) would have responded on the record to the defense's
Brady argument. All that "acknowledged" Brady evidence would
have come out during Isaiah S. Harris, Sr.'s trial in 2009 and the
state never intended that to happen. Also, what was revealed on
the record the prosecutor did not know these police reports
existed. Strickler at 281-82.
In the case at bar, the victim accused Harris of not only
numerous instance of domestic violence but also one count of
rape: whereas the alleged victim claimed that during the one
episode of domestic violence she testified that: Harris kicked open
the door and forced her at knife point to perform oral sex on him.
(T.p. ID# 160-167) The victim testified, while under direct
examination by the State that on the night in question- November
12, 2008, Harris kicked in the back door. (T.p. ID# 160-167).

1 The Trial Court denied Harris' right to a fair trial with a verdict worthy of
confidence by knowingly suppressing favorable evidence for the defense in
violation of Chambers v. Mississippi, 410 U.S. 283 See HN1,2,3.

8
Yet; within the official uniform incident report, by the
police- under the section "method of entry" no damage to the door
was indicated in this regard. Id. appendix M (November 2008 rape
report), at the first page thereof- under offense section. Also, on
the first page thereof appendix M is the time the incident began
11:30pm., concluded 5:00am., and when the police were called at
6:06am.
Moreover, when one directly compares the contents of
appendix M to the official uniform incident report marked as
appendix N (2007 same door)- in 2007 the same door which
involved a burglary at the alleged victim's address almost one year
to the date prior to the night in question (at the exact same rear
back door)- two boxes were clearly checked, at the first naee
thereof, clearly indicating that the door had a dead-bolt lock. As
you can see here the intruder gained entry and the door had
sustained visible damage as a result of being kicked in by the
intruder. As you read the police report from2007, (same door) this
officer observed the doorframe broken on the inside of the rear
door and the deadbolt broke as if somebody had kicked or pushed
their way in. Id. appendix N page 1,4. (2007 same door).
Furthermore, to highlight the common practice of the
Lorain Police Department's reporting of detail, to journalize
damage caused in burglaries please see, appendix O under section
narrative supplement at a page 3 thereof (2006 door report). Here
in 2006 the reporting officer stated: "door frame to inner and outer
door shattered." This further proves that on the night in question
at appendix M in the November 2008, (rape police report) the door
was never kicked in, as the witness later testified in court. This
evidence compared with appendix M (2008 rape report) and
appendix N (2007 same door report) has clear impeachment value
because the police reports are involving the same door and
"method of entry," and the two report are in stark contrast to one
another as the State's sole witness testified that the door was
kicked in by Harris on the night of the November 2008 rape
incident. This Brady evidence withheld from the record would have
put the case in such a different light cause it further highlights that
the State's sole witness testimony is unreliable.2
2 Harris was found not guilty beyond a reasonable doubt by the Court of
felonious assault, and Kidnapping which are part of the key elements of the

9

Moreover, the alleged victim- during her testimony on
cross- examination- perjured herself by actually revealing a
different person (other than Harris) who actually caused the
damage to the back-door of her residence on November 12, 2008,
the night of the allege rape: where she was being question about
informing Harris that she had a boyfriend. To Wit: (on the record
as follows) Q: and you lied to him about having this particular
boyfriend, did you not? Mr. Pierre: Objection. She answered no. A:
No. Q: So you told him that you were sleeping with some guy from
Chicago? A: "He was there. He had kicked the door in. I mean,
everything. He was knocking on the door." Q: "The guy from
Chicago?" A: "Yeah." (T.p. ID# 196)
Furthermore, during all the apparent noise Harris would
have surely caused by kicking the apartment (duplex) door loose;
which contained a deadbolt, to gain entry; such noise did not alarm
her neighbor; nor wake any of her three children that was in bed at
the time. (T.p. ID#162).
Ironically, however, the victim had previously, come very
close to being prosecuted for fabricating an almost identical
accusation against Harris- there Ms. Taylor alleged that Harris had
broken into her residence and threaten to assault her with a knife
while she was carrying their third child. And the only reason that
she evaded prosecution was as a direct result of her being
pregnant. At the time of this incident she was two months
pregnant May 3, 2007, and Harris was not aware she made these
charges until he was pulled over by police two months later July 5,
2007, which made her four months pregnant by the time he was
arraigned on these charges. See appendix P at 3,5. (2007 same lie
report) See also (T.p. ID# 178-179). Ms. Taylor testified to the age
and birthdays of their three children and this report form 2007
shows she was pregnant with their third child born January 3, 2008.
(130-131)

incidents and testimony. Those not guilty verdicts further vitiates Harris'
conviction in light of the facts within the November 2008 rape police report
revealed that the incident started at 11:30pm November 12,2008 and lasted
until 5:00am November 13, 2008. The November 2008 rape police report did
not report damage to the deadbolt and door frame as consistent with other
reports pertaining to that type of burglary on that type of door and lock.

10
As Harris now stands convicted this time in 2008, she took
her antics a step further: by adding a rape allegation for a more
dramatic effect. Yet, Harris was unlawfully prevented from
introducing this exculpatory evidence during his trial, and also
unjustly prevented from thoroughly questioning her- so as to
impeach her credibility- pertaining to the specifics of this event. To
Wit on the record as follows, (the alleged victim while under crossexamination by defense counsel). Q: Hi. Now you were asked
about these incidents with Isaiah in chronological. Correct? A: Yes.
Q: And would you agree with me some of the problems you had as
a couple go back to 2002. Correct? A: Yes. Q: and early on in 2002
he was accused of domestic violence by you. Correct? Mr. Pierre:
Objection. The Court: I'll overrule it. Q: Correct? A: Yes. Q: Did you
tell Mr. Pierre or Det. Sivert about any of the police reports and
incidents with the defendant, prior to the case that they asked
about? A: From 2002? Q: Right. A: No. Q: You recall you were
actually going to be charged in Lorain Municipal Court. Correct? Mr.
Pierre: Objection. The Court: Overruled. A: I believe so, yeah. Q: For
lying to the prosecutor. Correct? A: "I..." Q: Let me ask you this. It
would be something pretty easy to remember, correct, if you were
going to be charged. Right? A: Yes. (Mr. Rich hands the document
to Mr. Pierre) Mr. Pierre: for the record, I just want to object to the
use of defendant's exhibit 1.1 have never seen it. The State did
request reciprocal discovery, and it is not something that has ever
been provided in this case. The Court: Let's see what it is. We don't
have a jury, so I will hopefully be able to sort it all out. Q: I'm going
to show you what has been marked as defendant exhibit 1.1 want
you to take a look at that. Do you recognize the date on here? A:
Yes. Q: August 5, 2002.1 want you to, not read out loud, but I want
you to read that statement to yourself. Mr. Pierre: I'm going to
object. Is he trying to refresh her recollection? The Court: I'm
waiting to see. We haven't gotten a question yet. (T.p. ID# 178180).
In fact, the State did everything it could to prevent Brady
material from being revealed on the record- i.e. The suppression of
the evidence is attributed to the State as revealed on the record.
Exculpatory evidence that the State failed to turn over to the
defense in spite of its duty under Crim. R. 16. To Wit on the record
as follows: Q: Do you recall she was going to be charged for lying to
the police department? A: Yes, in 2007. Q: And when I provided

11
you all the discovery in this case, correct? A: Yes. Q: Do you recall
ever getting that from the State of Ohio, that incident? A: No. Mr.
Pierre: Objection. The Court: Sustained. Stricken. Mr. Pierre: Thank
You. The Court: "Last time we cover that issue, Mr. Rich." Mr. Rich:
Thank you, Your Honor. (T.p. ID# 226- 227).
Petitioner Harris exposed here, that the vitiation of the
proceedings was solidified here, and any hopes of a fair trial ended
here. When the Trial Judge said "Last time we cover that issue, Mr.
Rich..." The Trial Judge and State's prosecutor are vitiators because
they are okay with the fact that "there is favorable information that
was available that should have been provided, and it wasn't. See
(T.p. ID# 223-224).
Thus, as relevant to this case, U.S.C. Fed Rules Crim. Proc. R.
16 (a)(E)(i)(ii) permits the accused to inspect tangible evidence that
is material to the preparation of his defense. See appendix Y.
In the case at bar within the official uniform incident report
marked as appendix M, See at page 5. paragraph 1.2. and 3 (2008
rape police report), under narrative supplement it reveals the
police initially responds to a menacing complaint. Also, it reveals
Ms. Taylor knew of Harris' plans to go to trial for the March 26,
2008 and June 30, 2008 incidents.
This prior knowledge of Harris' plans to go to trial calls into
question her motive to change the nature of the initial complaint
from a misdemeanor menacing complaint to a first degree felony
rape complaint. This is in addition to the fact that there is proof the
door was not kicked in. Harris asserts non- harmless BradyChambers due process violations due to the fact the defense
counsel was not allowed to cross- examine the State's sole witness
about these revelations.
With respect to the March and June 2008 incidents that
Harris was convicted of at trial, Ms. Taylor testified that Harris beat
her up. (T.p. ID# 130-141). (The State theorized that it was out of
jealousy or despair). Yet, within the official uniform incident report
dated in 2002 marked as appendix Q. See at first page thereof.
(2002 stepbrother report) reveals four months after Ms. Taylor
gave birth to their first child Isaiah Jr. Petitioner Harris learns that
Ms. Taylor was sleeping with his stepbrother and with all the rage
and hurt created by this type of betrayal. Harris did not react in

12
such a barbaric manner, such as beating or raping Ms. Taylor. (T.p.
ID#222-223). See appendix Q (2002 stepbrother report). This
evidence eviscerates the State's current theory that Harris is
reckless and violently impulsive enough to do the current crimes
Harris is convicted of now. This becomes clearer when each
individual case and motive for the crimes is not fully developed by
the State's theory, because Harris has no criminal history.
Speaking of history, the allege victim has a history of
fabricating nearly identical charges from nearly identical stories
that Harris is charged and convicted of now in relation to the
March and June 2008 charges.3 (without any other evidence but
testimony from that witness). See appendix R see at pages 3,5.
(2003 same lie) under narrative supplement. A 2003 police report,
where it was reported by Ms. Taylor that Harris had a gun (another
weapon) and punched and kicked her in the head before leaving
the residence. The police then came to that address to speak with
Ms. Taylor and she did not have any signs of being assaulted and
she did not wish to press charges. See appendix R, at pages 3,5.
(2003 same lie) under narrative supplement. Although these
allegations were later dropped the seriousness to the complaint is
directly related to and consistent with the seriousness of the false
allegations Harris stands now convicted of. This Brady evidence is
directly in line with Ms. Taylor's testimony that she will lie to
achieve her end. See (T.p. ID# 186-187).
Moreover, directly after the March and June 2008,
incidents Ms. Taylor testified that she would meet with Harris and
have consensual sex (T.p. ID# 187-193) She also, admitted that she
went to the county jail to visit Harris after he was charged in all
three cases. (T.p. ID# 192-194). Yet, soon after Harris' conviction
and to this very day Ms. Taylor comes to visit Harris in prison and

3 Prior to the 2008 incidents Harris (incidents Harris' is now convicted of) has no
criminal history and the fact that Ms. Taylor has a proven history for
fabricating nearly identical criminal charges on Harris, was not fully explored
during trial due to the State's neglect of clear constitutional duty and
fundamental fairness.

13
takes family pictures. See approved prison visitors list. See appendix
S (March 30. 2021 Visit list at pages 1.2. and 3 4
Furthermore, this is during the time frame after the March
and June 2008 incidents in another police report marked as
appendix T (2008. 911 for no reason report. July 17. 2008 at page
4jjt reveals that Ms. Taylor will dial "911 emergency" for no
reason at all. It was revealed that Harris did not threaten her or
their kids in any way, and he did not come to her residence at that
particular time. "She did not want to file a charge at the time she
just wanted to know if Harris violated the protection order by
requesting to see his children." Yet, considering the fact that at this
very time it was revealed in trial testimony, that after the March
and June 2008 incidents, Ms. Taylor testified that she would meet
with Harris and have consensual sex. (T.p. ID# 187-193). This call
raises some serious concerns to her motive for calling "911
emergency" during this time frame that her and Harris was having
consensual sex and no charges being filed against Harris for
violating the protection order, (this is an interesting power
dynamic) this was the last call she made before the November
2008 rape report. This is during the same time period that she also,
admitted that she went to the county jail to visit Harris after he
was charged in all three cases. (T.p. ID# 192-194).
Now, before this Court is a rare and exceptional case of a
fact-bound power dynamic between Harris, Ms. Taylor, and the
State. Whenever, it is convenient for Ms. Taylor to use Harris for
sex, come visit Harris in jail and prison, while controlling when he
can be a father to their three children, in addition to holding the
keys to his rights to life and liberty, she does what she wants. It's
very rare you see a case like this, that the State endorse by
withholding Brady evidence because it is convenient (like Ms.
Taylor) to do so to maintain Harris' conviction.
Harris asserts that the Brady-Chambers due process
violation are non-harmless and puts the State's case in a different
light to undermine confidence in the outcome of his trial. Harris is
entitled to equitable tolling of the statute of limitation, because
Harris has made a credible showing of actual innocence with
4 It should be noted that to this day she comes to visit Harris in prison and is
reluctant to tell the truth regarding Harris' conviction because she fears she
will be prosecuted and charged with making false allegations.

14
newly presented", trustworthy evidence this Court cannot have
confidence in the outcome of Harris' trial in light of all the
impeaching evidence.

A. UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
On September 28, 2017. Clerk Deborah S. Hunt did an
unpublished merits review and denied (COA). See appendix A at
3rd page 1st paragraph.
The Sixth Circuit used case law that is in direct opposition
to United States Supreme Court precedents used in Brady v.
Maryland, 373 U.S. 83, (1963); Giglio v. United States, 405 U.S.
150, (1972); Chambers v. Miss., 410 U.S. 284, (1973); Smith v.
Cain, 565 U.S. 73, (2012); Wearry v. Cain, 136 S. Ct. 1002, (2016);
and Strickler v. Greene, 527 U.S. at 281-82. (1999).
The Sixth Circuit United States Court of Appeals stated:
"Although the trial record shows that the prosecution did not
disclose to Harris that K.T. had previously made domestic violence
allegations against him that the police determined were
unfounded, the record also shows that Harris' attorney acquired
the information independently before trial. Consequently, the
prosecution's failure to disclose the impeaching evidence was
harmless". See Carter v. Bell, 218 F.3d 581,601> (6th Cir. 2000)
(Stating that there is no Brady violation if the information was
available to defendant from another source.) See appendix A at
3rd page 1st paragraph.
However, Sixth Circuit precedents revealed in United
States v. Tavera, 719 F.3d 705, the precedents set forth "had
defendant taken any steps to pursue the information he
admittedly possessed about Medoza's identity and his potentially
exculpatory knowledge, the government would have been
required to respond truthfully." Because defendant did nothinp.
our precedents in Benge and Mullins absolve the government of
responsibility." See Benge, 474 F.3d at 243-44; Mullins, 22 F.3d
at 1371-72. The Supreme Court rebuked the Court of Appeals for
relying on such a "due diligence requirement" to undermine the
Brady rule. See Banks v. Dretke, 540 U.S. 668, At HN14,8.

15
Therefore, the Sixth Circuit precedent relied on in Carter v.
Bell, is clearly erroneous because the underlying precedents in
Benge and Mullins absolve the government of responsibility
cause defendant did nothing to take advantage of the knowledge
of Brady evidence at trial. In Harris' case what is so apparently
distinguishable is the fact that Harris did attempt to use the
Brady evidence in open court, the suppression of the Brady
evidence is attributed to the State. Thus, the resulting
constitutional violations are very harmful to petitioner's
fundamental rights to due process. And an "affirmative due
diligence" 4th prong requirement to the Brady analysis, succinctly
put, does not apply in this case. "[T]here are three components
of a true Brady violation: [(l)t]he evidence at issue must be
favorable to the accused, either because it is exculpatory, or
because it is impeaching: [(2)] that evidence must have been
suppressed by the State, either willfully or inadvertently; and [(3)]
prejudice must have ensued." Strickler, 527 U.S. at 281-82. Taken
together, the materiality and prejudice prongs do not require a
defendant to show that disclosure of the evidence would have
ultimately led to an acquittal. Instead, the defendant must
establish only that in absence of the evidence he did not receive
a fair trial, "understood as a trial resulting in a verdict worthy of
confidence." Kyles, 514 U.S. at 434. If the undisclosed evidence
"could reasonably be taken to put the whole case in such a
different light as to undermine confidence in the verdict, "then a
Brady violation has occurred." See id. at 435. See also, Smith v.
Cain, 132 S. Ct. 627, 630,181 L Ed 2d 571, (2012) Internal
quotation marks omitted) ("[Ejvidence is material within the
meaning of Brady when there's reasonable probability that, had
the evidence been disclosed, the result of the proceeding would
have been different.") "A reasonable probability does not mean
that the defendant would more likely than not have received a
different verdict with the evidence, only that the likelihood of a
different result is great enough to undermine [] confidence in
the outcome of the trial." Id. At 630 (internal quotation marks
omitted.)
"Impeachment evidence may be considered "material" for
purposes of Brady when the government's case depends almost
entirely on a witness's testimony, without which, there could be

16
no indictment and no evidence carry the case to a jury," See
Giglio, 405 U.S., at 154-55. (added emphasis)
The right of an accused in criminal trial to due process is,
in essence, the right to a fair opportunity to defend against the
State's accusations. The rights to confront and cross- examine
witnesses and to call witnesses in one's own behalf have long
been recognized as essential to due process... The right of crossexamination is more than a desirable rule of trial procedure. It is
implicit in the constitutional rights of confrontation, and helps
assure the 'accuracy of the truth- determining process'... It is,
indeed, 'an essential and fundamental requirement for the kind
of fair trial which is this Country's constitutional goal.' See
Chamber v. Mississippi, 410 U.S. 284,294 (1973) (cites omitted).
The crux of what the "affirmative due diligence" 4th prong
requirement to the Brady analysis used in some form or fashion
by 8 out of 12 Circuits, is defendant's actions in taking advantage
of the knowledge of the Brady evidence at trial. See Benge, 474
F.3d at 243-44; Mullins, 22 F.3d at 1371-72. What is
distinguishable in Harris' case is the fact that Harris did attempt
to use Brady evidence in open court. The suppression of the Brady
evidence is attributed to the State.
The eight different United States of Appeal Circuits with
controlling Circuit law that contravenes "clearly established"
United States Supreme Court precedent with an "affirmative due
diligence" 4th prong requirement to the Brady analysis are the 1st,
2nd, 4th, 5th, 6th, 7th, 8th, and the 11th, appeal circuit courts.5

5 United States v. Mullins, 22 F.3d 1365, See HN5 (6th Cir,) The government's
failure to disclose potentially exculpatory information does not violate Brady
"where a defendant 'knew or should have known the essential facts permitting
him to take advantage of any exculpatory information/ or where the evidence
is available to defendant from another source." United States v. Parker, 790
F.3d 550, See (HN6 4th Cir.) United States v. Brown, 650 F.3d 581, See (HN1,
5th Cir.) Ellsworth v. Warden, N.H. State Prison, 333 F.3d 1, See (HN7,1st Cir.)
United States v. Le Roy, 687 F.2d 610, See (HN8, 2nd Cir.)
United States v. Roy, 781 F.3d 416 See (*10,8th Cir.) There was no Brady
[**101 violation here. "The government does not suppress evidence in
violation of Brady by failing to disclose evidence to which the defendant had
access through other channels." United States v. Santisteban. SOI F.3d 873.
877 (8th Cir. 2007) (alteration omitted), quoting United States V. Zuazo. 243

17
The four different United States of Appeal Circuits along
with the United Supreme Court that never required or
recognized a 4th or 5th prong to the Brady analysis with an
"affirmative due diligence" requirement, are the 3rd, 9th, 10th, and
D.C. Circuit. "The prosecutor's obligation to turn over evidence in
the first instance stands independent of the defendant's
knowledge in this case, the fact that defense counsel knew or
should have known is irrelevant to whether the prosecution had
an obligation to disclose the information." See United States v.
Howell, 231 F.3d 615, 625, Also HN7,8, and 9.6

L3d 428, 431 (8th Cir. 2001) (internal quotation marks omitted). See United
States V. Ladoucer. 573 F.3d 628. 636 (8th Cir. 2009)
Carvajal v. Dominguez, 542 F.3d 561, See (HN5,7th Cir.), While most commonly
viewed as prosecutor's duty to disclose to the defense, the duty imposed
pursuant to Brady extends to the police and requires that they similarly turn
over exculpatory/impeaching evidence to the prosecutor, thereby triggering
the prosecutor's disclosure obligation. A Brady suppression occurs when the
government fails to turn over even evidence that is known only to police
investigators and not to the prosecutor. A Brady violation can be broken down
into three basic elements: (1) the evidence at issue is favorable to the accused,
either being exculpatory or impeaching; (2) the evidence must have been
suppressed by the government, either willfully or inadvertently; and (3) there is
a reasonable probability that prejudice ensued—in other words, materiality.
Evidence is suppressed when (1) the prosecutor fails to disclose the evidence
in time for the defendant to make use of it. and (21 the evidence is not
otherwise available to the defendant through the exercise of reasonable
diligence. Evidence is material if there is a reasonable probability that, hade
the evidence been disclosed to the defense, the result of the proceeding would
have been different.
See United States v. Rigal, 740 Fed. Appx 171 See (HN3,11th Cir.) To establish
a Brady violation, a defendant must show that (1) the government possessed
evidence favorable to her; (2) she did not possess the evidence and could not
obtain it with reasonable diligence: (3) the government suppressed the
favorable evidence; and (4) the evidence was material. For Brady purposes,
evidence is material if a reasonable probability exists that, had the evidence
been disclosed, the outcome of the proceeding would have been different. A
reasonable probability is a probability that is sufficient to undermine
confidence in the outcome.

6 The government admits that it learned of the mistake in the police reports
before trial and did not reveal the error to the defense. Nevertheless, the
government argues that Howell is not entitled to a mistrial for three reasons:
(1) because Howell knew that the money was actually recovered from him, the
government was under no obligation to disclose the information [*6251 to the
defense, (2) the correct information was inculpatory in that it suggested that

18
The eight different appeal circuit court including the 6th
Circuit, (Harris' court) are contravening stare decisis. See Ramos
v. Louisiana, 140 S. Ct. 1390 See, *1411, *1403.7 "Stare decisis
isn't supposed to be the art of methodically ignoring what
everyone knows to be true." R. Cross & J. Harris, Precedent in
Howell committed the offense, and therefore the government was under no
duty to disclose the information to the defense; and (3) even if the mistakes in
the reports should have been disclosed, Howell was not sufficiently prejudiced
to warrant a mistrial. We conclude f**231 that the government's first two
arguments are baseless, but that the third has merit, and therefore will not
disturb his conviction. HN7 Consonant with the special role the American
prosecutor plays, the Supreme Court in Brady v. Maryland held "that the
suppression by the prosecution of evidence favorable to an accused upon
request violates due process where the evidence is material either to guilt or
punishment, irrespective of the good faith or bad faith of the prosecution." 373
U.S. 83. 87. 83. S. Ct. 1194,10 L. Ed. 2d 215 (19631. Since Brady, the Court has
held that the duty is applicable even though there has been no request by the
accused, United State v. Bagiev. 473 U.S. 667.676. 87 L. Ed. 2d 481.105 S. Ct.
3375 (1985). and that rule covers information "known only to the police
investigators and not the prosecutor. f**221 "Kvles v. Whitlev. 514 U.S. 419.
438, 131 L. Ed. 2d 490. US S. Ct. 1555 (19951.
More recently, the Supreme Court clarified the three elements of a "true"
Brady violation: "The evidence at issue must be favorable to the accused,
either because it is exculpatory, or because it is impeaching; that evidence
must have been suppressed by the State, either willfully or inadvertently; and
prejudice must have ensued." Strickler. 527 U.S. at 281-82.
The government's contention that it had no duty to disclose the mistake to the
defense because Howell knew the truth and could have informed his counsel
is wrong. HN8 The availability of particular statements through the defendant
himself does not negate the government's duty to disclose. See United States
v. McElroy. 697 F.2d 459, 465 (2d Cir. 19821, Defendants often mistrust their
counsel, and even defendants who cooperate with counsel cannot always
remember all of the relevant facts or realize the legal importance of certain
occurrences. See id. HN9_Consequently, "defense counsel is entitled to plan
his trial strategy on the basis of full disclosure by the government regardless
of the defendant's knowledge or memory of the disclosed statements.' Id.
7 Stare decisis isn't supposed to be the art of methodically what everyone
knows to be true. Of course, the precedents of the United States Supreme
Court warrant deep respect as embodying the considered views of those who
have come before. But stare decisis has never been treated as an inexorable
command. And the doctrine is at its weakest when courts interpret the United
States Constitution because a mistaken judicial interpretation of that supreme
law is often practically impossible to correct through other means. To balance
these consideration, when it revisits a precedent the Supreme Court has
traditionally considered the quality of the decision's reasoning; its consistency
with related decisions; legal developments since the decision; and reliance on
the decision.

19
English Law 1 (4th ed. 1991) (attributing this aphorism to Jeremy
Bentham).
The truth that the 6th Circuit methodically ignored was the
trial court prosecutor's obligation under Brady and that the
suppression of all that evidence is attributed to the State.
"Stare Decisis promotes the evenhanded, predictable, and
consistent development of legal principle, fosters reliance on
judicial decisions, and contributes to the actual and perceived
integrity of the judicial process..." See Gamble v. United States,
139 S. Ct. 1960, at HN4.
Petitioner Harris asserts that today in America any Court
or Agency can hide evidence and the outcome will be predicated
on which circuit you were charged with a crime in. On a
fundamental question of law such as this, this shouldn't be the
case and it is today. 66.6% or eight out of twelve United States
Circuit Appeals Court are in violation.
Sixth Circuit Clerk Deborah S. Hunt did a merits review
that's unpublished and that very act, not only violated the
aforementioned constitutional statutes and Supreme Court case
law. The unpublished act is without jurisdiction. See Buck v.
Davis, 137 S. Ct. 759 See HN4, 5.8
HN4_A state prisoner whose petition for a writ of habeas corpus is denied by a
federal district court does not enjoy an absolute right to appeal. Federal law
requires that he first obtain a certificate of appealability (COA) from a circuit
justice or judge. 28 U.S.C.S. § 2253(c)(1). A COA may issue only if the applicant
has made a substantial showing of the denial of a constitutional right. 28
ILS.C.S. § 2253(c)(2). Until the prisoner secures a COA, the Court of Appeals
may not rule on the merits of his case.
HN5 The certificate of appealability (COA) inquiry is not coextensive with a
merit analysis. At the COA stage, the only question is whether the applicant
has shown that jurists of reason could disagree with the district court's
resolution of his constitutional claims or that jurists could concluded the issues
presented are adequate to deserve encouragement to proceed further. This
threshold question should be decided without full consideration of the factual
or legal bases adduced in support of the claims. When a court of appeals
sidesteps the COA process by first deciding the merits of an appeal, and then
justifying it s denial of a COA based on its adjudication of the actual merits, it is
in essence deciding an appeal without jurisdiction.

20

Petitioner Harris declares that even though Sixth Circuit
Clerk Deborah S. Hunt acted In ultra vires. See appendix L. The
more troubling fact of the matter is the controlling Sixth Circuit
case law the clerk relied on. This situation is made clear in United
States v. Tavera, 719 F.3d 70S. As dissenting Sixth Circuit Judge
Eric L. Clay clearly pointed out. See dissent, (3rd paragraph).9
B. ACTUAL INNOCENCE AND BRADY
Petitioner Harris implores this court in this case to justify
the exercise of its discretionary powers also because, "there is a
circuit split about whether the "new" evidence required under
Schlup includes only "newly discovered" evidence that was not
available at the time of trial, or broadly encompasses all evidence
that was not presented to the fact-finder, i.e., "newly presented"
evidence. See Cleveland v. Bradshaw, 693 F.3d 626, (**20).10
In this case Harris would like to highlight another major
problem in Ohio Courts for petitioners like Harris who have an
9 If we were writing on a blank slate or applying Brady without considering the
subsequent controlling case law of the Sixth Circuit, the majority's holding
might well be sustainable. However, Brady is not the only star in the
constellation of cases that we are obliged to f**25l consider and faithfully
apply. Even if many of the controlling cases are unwise or ill-conceived in light
of the fairness concerns that underpin Brady, we are no less bound to adhere
to them. A prior published panel decision "remains controlling authority unless
an inconsistent decision of the United States Supreme Court requires
modification of the decision or this Court sitting en banc overrules the prior
decision." Rutherford v. Columbia Gas. 575 F.3d 616. 619 (6th Cir. 20091.
Furthermore, "[i]n the Sixth Circuit, as well as all other federal circuits, one
panel cannot overrule a prior panel's published decision." United State v.
Washington, 127 F,3d 510,517 (6th Cir. 19971.
10 There is a circuit split about whether the "new" evidence required under
Schlup includes only newly discovered evidence that was not available at the
time of trial, or broadly encompasses all evidence that was not [**201
presented to the fact-finder during trial, i.e. newly presented evidence. See
Connolly v. Howes. 304 F. App'x 412.419 (6th Cir. 20081 (Sutton. J..
concurring). Our opinion in Souter suggests that this Circuit considers "newlv
presented" evidence sufficient. See 395 F.3d at 596 n.9. Hnwrwpr just as
Judge Sutton stated in his concurrence in Connolly, "we need not address...
whether there is a meaningful difference between 'newly discovered' and
'newly presented' evidence," 304 F. Add'x at 419. hpremm the evidence
Cleveland submits to demonstrate his innocence is analogous to the evidence
considered "new" by the Schlup Court.

21
overt Brady violation on the record, and where the desire to file a
post-conviction is at 1000%. See appendix D (Magistrate Judge's
order) Greg white's order grafting leave to amend petition to
include two additional grounds for relief, February 18, 2015. Also,
See appendix E, (Magistrate Judge's R&R see at page 11,
paragraph 5.) In Harris v. Clipper, 2015, U.S. Dist. Lexis 187060
stating: "Simply put, the evidence Harris would like to add now
(and which he would have liked to present at trial) mav or mav
not.have had an impact on the trial judge's assessment of K.T.'s
credibility. Issues of credibility are reserved to the finder of fact."
Also, See appendix B (Federal District rehearing at page 3,
paragraph 1,2, and 3). This opinion defies all logic and Giglio, 405
U.S., at 154-55 (added emphasis) When the District Court Stated:
"impeachment evidence is not sufficient to establish a gateway
claim of innocence." Harris maintains, the cases cited by the
District Court are used out of context because the impeachment
history and relationship between the alleged victim and
defendant are always intrinsic.
"Pieces of evidence are not to be viewed in a vacuum;
rather, they are viewed in relation to the other evidence in the
case." See Davis v. Lafler, 658 F.3d 525, at HN10 (6th Cir. 2011).
Ms. Taylor's testimony was called into question with very limited
cross-examination on the record. So with the wealth of Brady
evidence withheld from the record the only way Harris' conviction
could stand is in a vacuum detached from logic, context, and the
reality that Ms. Taylor is a proven liar, that lied in the past and is
lying now. This begs the question how can any reasonable Court
feel confident with a verdict, or find Harris guilty of the essential
elements of the crime(s), beyond a reasonable doubt, by
connecting dots, that was said on the record, (under direct State
review), it was based solely on inferences made by that witness's
trial testimony? (explaining that a state court's decision is not
unreasonable if it took the controlling standard "seriously and
produce[d] an answer within the range of defensible positions").
Id. at [*535] (internal quotation marks omitted).
Harris would like to say that the former head prosecutor,
for Lorain County, Ohio, turned United States Magistrate judge
Greg White's characterization, was at best off key and short
sighted to existing United States Court of Appeals for the Sixth

22
Circuit precedent and future United States Supreme Court Brady
case law when he made that statement in 2015.
"Issues concerning the admissibility of evidence are state
law question and not open to challenge on collateral review
unless the fundamental fairness of the trial has been so
impugned as to amount to denial of due process" See Bell v. Arn,
536 F.2d 123 (6th Cir. 1976). See Brofford v. Marshall, 751 F. 2d
845 (1985 See HN11, 6th Cir. 1985)
"To prevail on his Brady claim, Wearry need not show that
he 'more likely than not' would have been acquitted had the new
evidence been admitted." Smith v. Cain. 565 U.S. 73. 75.132 S.
Ct. 627, 630,181 L. Ed. 2d 571, 574 (20121 (internal quotation
marks and brackets omitted). "He must only show that the new
evidence is sufficient to 'undermine confidence' in the verdict.
Ibid.jjS] Given this legal standard, Wearry can prevail even if, as
the dissent suggest, the undisclosed information may not have
affected the jury's verdict." Wearry v. Cain, 136 5. Ct. 1002,
(*1006)
Harris would like to affirm this is analogous with the actual
innocence Schlup requirements for first time habeas petitioners
like Harris to overcome 28 U.S.C.S. §2244 (d)(1)(D). See appendix
K.
Me Quiggin v. Perkins, 569 U.S. 383, See HN8- "No
showing of innocence required". Also see, HN10,15,16,1,7, and

12.
Under Carriger, HN6 impeachment evidence, by itself, can
demonstrate actual innocence, where it gives rise to "sufficient
doubt about the validity of [the] conviction." Carriger. 132 F.3d at
478; see also Schlup, 513 U.S. at 330 ("IJndpr the gateway
standard..., [*677] the newly presented evidence may indeed call
into question the credibility of the witnesses presented at trial.")
Sistrunk v. Armenakis, 292 F.3d 669, at HN6.
In habeas proceedings, a claim of actual innocence
requires the introduction of new reliable evidence - whether it be
exculpatory scientific evidence, trustworthy eyewitness accounts,

23
or critical physical evidence—that was not presented at trial. See
Sistrunk v. Armenakis, 292 F.3d 669, at HN5.
In Ohio, a case without any physical evidence, were the
credibility of the witness's testimony is central to up hold a
conviction. Today in Ohio the prosecutor has no Brady
obligations, because the trial court can suppress fundamental
evidence that only refer to a witness' veracity. See appendix W
(Rule of Evid. R. 608(A)(1)) and then vitiate the scope of crossexamination. See appendix X under Rule 611. Mode and order of
interrogation...(B). On the record without any consequence.
Then the State appointed appellate counsel read the
record and clearly seen a Brady violation on the record in the trial
transcripts. Then fails to tell defendant that the evidence off the
record can support [his] direct appeals claim that the (state
appointed) appellate counsel decided to raise independent of
Harris' input, stating:
"This verdict in this case is against the sufficiency and
manifest weight of the evidence and should be reversed because
it violates the 5th, 6th and 14th amendments to the United States
Constitution, and Article 1, Section 10 of the Constitution of the
State of Ohio. Because the witness in this case has a long history
of telling lies about the defendant in this case". See appendix G,
4th page thereof.
That Brady evidence would have negated any inference
made by that testimony during direct appeal. See appendix H,
State v. Harris. 2010- Ohio-1081. (at *ol through *1RT while the
State affirms Harris' conviction on the sufficiency of the evidence
grounds, the State relied solely on inferences drawn from that
uncontested testimony, to find Harris guilty of every essential
element of the crimes beyond a reasonable doubt. "And this type
of claim can almost always be judged on the written record
without need for an evidentiary hearing in the federal court."
Jackson v. Virginia, 443 U.S. 307, at 322, also see HN9,10, and 11.
Especially, in light of the fact Harris was found not guilty beyond a
reasonable doubt of felonious assault and kidnapping, while the
State withheld Brady evidence.

24
C. REASON FOR GRANTING THE WRIT
This Court's power to grant an extraordinary writ is very
broad but reserved for exceptional cases in which "appeal is a
clearly inadequate remedy." Ex parte Fahey, 332 U.S. 258, 260
(1947). 28 U.S.C.S. §2244(d)(l)(D) See appendix K, requires (first
time) habeas petitioners to file a claim within one year of the time
in which new evidence could have been discovered through the
exercise of due diligence. "It would be bizarre to hold that habeas
petitioner who asserts a convincing claim of actual innocence may
overcome the statutory time bar §2244(d)(l)(D) erects, yet
simultaneously encounter a court-fashioned diligence barrier to
pursuit of her petition." Me Quiggin v. Perkins, 569 U.S. 383, at
HN13.
Harris points out the classification of the evidence is key
here. In the Sixth Circuit there is a Circuit split about whether the
"new" evidence required under Schlup includes only newly
discovered evidence that was not available at the time of trial, or
broadly encompasses all evidence that was not presented to the
fact-finder, i.e., "newly presented" evidence. See Cleveland v.
Bradshaw, 693 F. 3d 626, at(**20).
Harris affirms his case is extraordinary because a unique
chain of events coupled with a legal environment made from
"controlling case law that's unwise or ill-conceived in light of the
fairness concerns that underpin Brady" United States v. Travera,
719 F.3d 705 (6th Cir. 2013) dissent Judge Eric L. Clay.
Rule 20 (See appendix V) of this court requires a petitioner
seeking a writ of habeas corpus demonstrate that (1) "exceptional
circumstances warrant the exercise of this power", and (2)
adequate relief cannot be obtained in any other form or from any
other court (3) "the writ will be in aid of the court's appellate
jurisdiction." Further, this court's authority to grant relief is
limited by 28 U.S.C.S. § §2254(B)(i)(ii)(d)(l) and 2241(c)(3). See
appendices I and J. And any considerations of a first time habeas
petition must be "imfor[edj" by 28 U.S.C.S. §2244(d)(l)(D)

25
Mr. Harris' last hope for an evidentiary hearing, new trial,
or unconditional habeas relief regarding his Schlup actual
innocence "Gateway" claim lies with this Court. His case presents
exceptional circumstance that warrant exercise of this Court's
discretionary powers.

I. STATEMENT OF REASON FOR NOT FILING IN THE DISTRICT
COURT
As required by this Court's Rule 20.1, 20.4, and 28 U.S.C.S.
§§2241 and 2242. Mr. Harris states that he has not applied to the
District Court because the Sixth Circuit Court prohibited such an
application. See appendix A. Mr. Harris exhausted his state
remedies for his Schlup actual innocence "gateway" claim
because either there is an absence of available state corrective
process; or circumstances exist that render such process
ineffective to protect the rights of the applicant.
Since Mr. Harris exhausted his State remedies and was
denied permission by the Sixth Circuit Court of Appeals for a
certificate of appealability, he cannot obtain relief in any other
form or any other court.
II. THE EXCEPTIONAL CIRCUMSTANCES OF THIS CASE WARRANT
THE EXERCISE OF THIS COURT'S JURISDICTION
The courts that have reviewed Mr. Harris' Schlup
innocence claim have been sharply divided. Eight out of twelve or
66.6% United States of Appeal Circuit Courts have controlling case
law that "violates clearly established" United States Supreme
Court case precedent with an "affirmative due diligence" 4th
prong requirement to the Brady analysis. Also, Mr. Harris
highlights a Sixth Circuit Court split about whether the "new"
evidence required under Schlup includes only "newly discovered"
evidence that was not available at the time of trial, or broadly
encompasses all evidence that was not presented to the fact­
finder, i.e. "newly presented" evidence.
What makes Harris' case exceptional is the fact that
whether the classification of the evidence is newly discovered or
newly presented, it's all predicated on the State's suppression of
Brady-Chambers evidence at trial.

26
Furthermore, in light of unwise or ill-conceived controlling
case law that was applied in Harris' case, coupled with the fact,
the mother of his three children has displayed an undeniable factbound pattern to lie and maintain close contact with Mr. Harris, is
rare and exceptional, and would aid and warrant the exercise of
this Court's appellate jurisdiction.
Foremost, Harris maintains that the "writ will be in aid of
the Court's appellate jurisdiction," because the Court has
jurisdiction to review denials of applications for certificates of
appealability, because those denials are judicial in nature. See
Hohn v. United States, 524 U.S. 236, (1998) (cites omitted). Also,
See Ex parte Milligan, 71 U.S. 2,4 wall. 2,110-113,18 L. Ed. 281,
(1866), which reasoned that a petition for habeas corpus is a suit
because the petitioner seeks "that remedy which the law affords
him" to recover his liberty.
Moreover, Harris declares that in theory and in public,
every reasonable mind cherishes the right to due process. Then in
a blink of an eye, when adding the strong stigma of a criminal
charge to the mix. Now, who really cares about due process? The
accuser or the accused, the Judges or the Prosecutors, the
Legislatures or the Advocacy Groups? The truth of the matter is
nobody cares, until it's you who needs due process, or your son or
daughter who needs due process to work. This Court holds: "Our
system of law has always endeavored to prevent even the
probability of unfairness..." Estes v. Texas, 381 U.S. 532, See HN8,
and HN9 (1965) (add emphasis)
Today in 2021, Harris affirms, that nobody is safe because
everything is for sport, there is nothing sacred, everything is up
for grabs, and fundamental rights have eroded for finality.
Nowhere in the sense of "everything is up for grabs and nothing is
sacred" is that statement made evermore clear, then in recently
decided case Mays v. Hines, 141S. Ct. 1145, at [***10]. Where
the judgment of the Sixth Circuit was reversed.
In a classic, "he said, she said" case such as Harris' and in
light of the Sixth Circuit's arbitrariness, petitioner Isaiah S. Harris,
Sr. invokes this Court's broad and discretionary power, to remand
this case to the District Court or Sixth Circuit Court with
instruction to grant an unconditional writ of habeas corpus. (1)
The record is devoid of proof by the State that defendant sexually

27
penetrated the alleged victim while using force. (2) The record
does not support retrial because the State's case rest with Ms.
Taylor's 13-year-old (to date) incredible testimony. Lall v. Bergh.
556 Fed. Appx. 449, See HN3,4, and 5. Unconditional habeas
granted. Also, See Brown v. Palmer, 441 F.3d 347, at [**15].
Now, Harris comes to the United States Supreme Court,
praying for relief from a classic "railroad" unconstitutional
conviction. Only in America can the rich and the poor alike bring
forth their claims, aspire to be heard, get equal attention and
treatment under our constitutional law. Harris avers, if he was
charged with a crime in one of the four remaining United States
of appeal circuits without an "affirmative due diligence' 4th prong
requirement to the Brady analysis, he would have been home
years ago.
Foremost, because of Harris' serendipitous argument, of
the analogous affect his Brady-Chambers claim will have on his
Schlup innocence claim, to overcome or to satisfy, 28 U.S.C.S. §§
2253(c)(l)(c)(2) COA, and 2244(d)(1)(D) AEDPA's one year-time
limitation for first time habeas petitions. Because none of the
standards of reviews imposed on Harris' constitutional claims
require absolute certainty in regards to his innocence.
It looks like Harris will never have his day in Court, because
of State vitiators, and their total disregard for Supreme Court
precedent, and criminal procedure.
Moreover, whether the classification of the evidence is
newly discovered or newly presented, it is all predicated on the
State's suppression of Brady-Chamber evidence at trial. Harris
prays that this fact does not leave him unprotected by our
constitutional law, because that would be fundamentally unfair,
un -American, and not akin to the standards of justice that every
citizen is guaranteed to enjoy in America today.

28
Subsequently, prior to Harris' classic "railroad"
unconstitutional conviction, he has no criminal history. Speaking
of history, the alleged victim has a history of fabricating nearly
identical charges from nearly identical stories that Harris is
charged and convicted of now in relation to all the charges from
2008. If Harris had a violent criminal history with Ms. Taylor the
State would relish in its relevance to this case and could use any
similar violent crime within the past ten-years of the 2008
incidents. But, because Harris doesn't have a violent criminal
history with Ms. Taylor, and she's the one with a history of almost
being criminally charged for making false claims, it would defy all
logic to think that's irrelevant to this case, or to analyze all the
facts surrounding Harris' case in a vacuum, to demur the
exceptional and intrinsic nature of his case.
This leaves one to ask, does a self-taught pro se pauper's
right to life and liberty matter today in America, does his
aspirations and dreams matter today in America, or will he be
forever silenced, as just another name or number in a stack of
paper?
In despite of Harris' situation these facts remain forever,
(1) that Harris did not get a fair trial, (2) every appeals review has
been objectively unreasonable in light of the facts and law, (3) this
conviction rest with the credibility of a witness that's a proven
lair, (4) and the government suppressed this evidence, (5) the
appeal court's methodically ignored what everyone knows to be
true, that Harris is guaranteed a fair trial in America today. "A
measure of justice, is not the same as equal justice or equal
protection of the law." Harris prays the United States Supreme
Court grants unconditional habeas relief.

29

□.CONCLUSION
The petition for writ of habeas corpus in re Isaiah S. Harris,
Sr. should be unconditionally granted.

Respectfully Submitted,

Isaiah S. Harris Sr. #570-016
Richland Correctional Institution
P.O. Box 8107 Mansfield, Ohio 44901
Pro se Litigant

